No. ____________________________
IN THE SUPREME COURT OF THE UNITED STATES
____________________________
CLIFFORD WILLIAMS,
Petitioner,
v.
STATE OF LOUISIANA,
Respondent.
____________________________
ON PETITION FOR A WRIT OF CERTIORARI
TO THE SUPREME COURT FOR THE STATE OF LOUISIANA
____________________________
APPENDIX
____________________________
A.

Opinion of the Louisiana Fourth Circuit Court of Appeals, affirming
Mr. Williams’ conviction and sentence (February 27, 2019) 1a-27a

B.

Opinion of the Louisiana Supreme Court, denying Mr. Williams’ Writ
of Review (April 3, 2020) 28a-36a

C.

Order of the Louisiana Supreme Court denying in relevant part Mr.
Williams’ request for rehearing (July 9, 2020) 37a-38a

ia

STATE OF LOUISIANA

*

VERSUS

*

CLIFFORD WILLIAMS

*

NO. 2018-KA-0445
COURT OF APPEAL
FOURTH CIRCUIT

*
STATE OF LOUISIANA
*******
APPEAL FROM
CRIMINAL DISTRICT COURT ORLEANS PARISH
NO. 516-674, SECTION “J”
Honorable Darryl A. Derbigny, Judge
******
Judge Dale N. Atkins
******
(Court composed of Judge Terri F. Love, Judge Joy Cossich Lobrano, Judge Dale
N. Atkins)
Leon Cannizzaro, Jr., District Attorney
Donna Andrieu, Assistant District Attorney
Irena Zajickova, Assistant District Attorney
DISTRICT ATTORNEY'S OFFICE
ORLEANS PARISH
619 S. White Street
New Orleans, LA 70119
COUNSEL FOR STATE OF LOUISIANA/APPELLEE
Autumn A. Town
LAW OFFICE OF AUTUMN TOWN, LLC
700 Camp Street
New Orleans, LA 70130
Graham Bosworth
LAW OFFICE OF GRAHAM BOSWORTH, LLC
700 Camp Street
New Orleans, LA 70130
COUNSEL FOR DEFENDANT/APPELLANT
CONVICTION AND SENTENCE AFFIRMED
FEBRUARY 27, 2019

Williams Cert. Petition Appendix 1a

Defendant, Clifford Williams (“Defendant”) appeals his conviction by a jury
of second degree murder, a violation of La. R.S. 14:30.1, and his resulting life
sentence without benefit of parole, probation or suspension of sentence. Finding no
merit to his assignments of error on appeal, we affirm his conviction and sentence.
Procedural Background
On July 18, 2013, the State indicted Defendant for the March 25, 2013
second degree murder of fifteen-year-old Ralphmon Green (“victim”). Defendant
pled not guilty at his arraignment on July 26, 2013. On August 26, 2014, the trial
court denied Defendant’s motions to suppress identification and statement.
Following numerous continuances, trial commenced on January 24, 2017,
and concluded January 26, 2017, with the jury returning a verdict finding
Defendant guilty of second degree murder. Defendant filed motions for postverdict judgment of acquittal, new trial, and to reconsider sentence on March 28,
2017, all of which were denied on May 17, 2017. Immediately after denying those
motions, the trial court sentenced Defendant to life imprisonment without benefit
of parole, probation or suspension of sentence.

1
Williams Cert. Petition Appendix 2a

Defendant’s motion for appeal was granted on May 17, 2017 and his appeal
was timely filed.
Evidence at Trial
At trial, Officer Juan Lopez (“Officer Lopez”) testified that he was the
responding officer to a report of aggravated battery by shooting in the 2100 block
of Allen Street, in New Orleans on March 25, 2013. He found the victim lying on
his back on the ground, unresponsive and with a gunshot wound to the head.
Officer Lopez stated that there was a large crowd of people around the victim and
that no weapon was found on the victim or on the scene near the victim.
Sheryl Green (“Ms. Green”), the victim’s mother, testified that on the day
her son was killed, her son had left home on his bicycle to go to her niece and
nephew’s house a short distance away. She reported that she learned her son had
been shot when she received a phone call from Durrell Williams (“Durrell”), a
friend of the victim’s. Later that evening, she was visited by Durrell’s mother,
Tina Williams (“Ms. Williams”) and Carl “Monster” Moore (“Mr. Moore”), who
were both acquainted with her son. Both Ms. Williams and Mr. Moore stated that
they witnessed her son get killed. Ms. Green identified an Instagram photograph
that she provided to New Orleans Police Detective Travis Ward (“Det. Ward”).
She had suggested Det. Ward use the photograph to investigate the man depicted in
the middle of the photograph. She told Det. Ward the man in the photograph
attended Clark High School.
Det. Ward, the lead detective on this case, recalled that the shooting
occurred on March 25, 2013, at approximately 6:15 p.m. By the time Det. Ward
arrived on the scene, the victim’s body had been removed to University Hospital.
Det. Ward identified photographs of the crime scene. Eight 9-millimeter shell
2
Williams Cert. Petition Appendix 3a

casings were located at the scene, along with four bullets, three of which had been
fired into the ground and the fourth, which was located and removed from a car
parked near the scene. Additional bullets were later retrieved from the body of the
victim. Det. Ward explained that the location of the bullets on the scene was
important because they indicated that the shooter was firing down at the victim
multiple times and at a distance.
Det. Ward separately interviewed Ms. Williams, Durrell, and Mr. Moore.
Ms. Williams confirmed that she had witnessed the shooting. Ms. Williams, Mr.
Moore and Durrell all described the shooter as having a medium build, “bright”
skin with a small or thin beard. Det. Ward reported that none of these witnesses
could provide him with the suspect’s name. All three denied that the victim was
armed at the time of shooting or that the victim did anything to indicate that he was
armed at the time of the shooting. Det. Ward also testified that none of the
witnesses on the scene reported that the victim had been armed with a firearm
when he was killed. Det. Ward was unable to retrieve surveillance video of the
area.
Further investigation revealed that the suspect was known as “Cliff” and that
he attended Clark High School. School personnel identified the image of the
suspect from the Instagram photo as Clifford Williams (Defendant). School
personnel gave Det. Ward a high school picture of Defendant along with a
biographical information sheet.1

1

Det. Ward subsequently discovered that the high school picture given to him by school
personnel was, in fact, a picture of Defendant, but that the biographical information sheet
accompanying that photo belonged to a second “Clifford Williams,” who was also a student
attending Clark High School. Det. Ward discovered the error when he interviewed the second
“Clifford Williams.”

3
Williams Cert. Petition Appendix 4a

Det. Ward compiled a six-person photo lineup, which included Defendant’s
high school picture, and he showed the photo line-up to Ms. Williams. Ms.
Williams identified Defendant as the shooter. Det. Ward then obtained an arrest
warrant for Defendant and a warrant to search Defendant’s residence. On April 2,
2013, Det. Ward executed both warrants. During the course of the search, Det.
Ward confiscated a pair of blue jeans hidden under the sofa where Defendant
usually slept. In the pocket of the blue jeans, Det. Ward found a semi-automatic
Smith and Wesson gun. Det. Ward explained that the confiscated weapon could
hold sixteen rounds of ammunition but was loaded with just eight bullets. Det.
Ward reported that the weapon was submitted to the crime lab to be tested to see if
it was the same weapon used to fire the shell casings that were collected at the
crime scene.
According to Det. Ward, Defendant was transported to police headquarters,
where he was given his rights per Miranda.2 Defendant gave an audio and videorecorded statement, which the State played in court as the jury followed along with
a transcription of the statement. Initially, Defendant denied being present at the
shooting, and claimed he did not know the victim. Confronted with the evidence
against him, however, Defendant admitted shooting the victim. Defendant claimed
that he and the victim were engaged in a verbal exchange when the victim
appeared to quickly reach for a gun. Defendant drew his gun, which was concealed
in his waistband, and shot the victim, claiming “he was about to kill me.”3

2

Miranda v. Arizona, 384 U.S. 436, 86 S.Ct. 1602, 16 L.Ed. 2d 694 (1966).

3

Det. Ward’s investigation established that Defendant did not have a permit to carry a concealed
weapon.
4
Williams Cert. Petition Appendix 5a

Defendant explained that he left the scene of the shooting and rode a city bus to his
father’s house.
Continuing his testimony, Det. Ward said his investigation revealed that a
person named Ernest Cloud was present at the shooting and had encouraged
Defendant to shoot the victim. Det. Ward learned that Ernest Cloud was on
probation and was wearing an ankle monitor at the time of the shooting. Further,
Det. Ward learned that the ankle monitor indicated Ernest Cloud was present in the
area at the time the victim was shot. Det. Ward identified Ernest Cloud as the
individual wearing white in the Instagram photo. When he gave his statement,
however, Defendant denied that anyone named Ernest was with him at the time of
the shooting.
On cross-examination, Det. Ward testified he learned the victim had been on
the scene for a period of time prior to the shooting and that the shooting resulted
from a dispute between the victim and Defendant that had begun about a month
and a half prior to the victim’s murder. Det. Ward learned during his investigation
that, just before the shooting, six black males arrived in response to a phone call
made by “Dominique.” Among those six males were Mr. Moore, “Tigger,”
“Jermaine” and “Ruger,” who were the victim’s friends and who were believed to
be members of the “Money Over Everything” gang. On redirect, Det. Ward
indicated that gang members often denote their loyalty to a gang by getting tattoos
on their hands, similar to those on Defendant’s hands. Det. Ward further explained
that gang members generally wage disputes with other gang members but the
victim in this case was not known to be a member of any gang.
The State called Mr. Moore, who acknowledged currently being in jail for
home invasion and having prior convictions of burglary and theft. Mr. Moore
5
Williams Cert. Petition Appendix 6a

stated that he did not want to appear in court for fear of being labeled a “rat” and
possibly killed. However, he agreed to testify because of his close relationship
with the victim and because the victim’s family deserved justice.
Mr. Moore acknowledged that he knew Ms.Williams and her son Durrell;
however, Mr. Moore knew Durrell by the name of “Ruger.” Just prior to the
shooting, Ms. Williams received a telephone call asking her to drive to the 2100
block of Allen Street because, “Durrell was about to get into it with someone.”
Mr. Moore accompanied Ms. Williams to Allen Street where they saw the
Defendant pointing a gun at the victim, with whom he was arguing. Mr. Moore
positioned himself between the victim and Defendant, urging Defendant to put the
gun down because “. . . it’s not worth it. . . That’s a little boy (referencing the
victim) right there, man.” According to Mr. Moore, the victim was unarmed when
the gun was pointed at him, and he made no gesture or movement to indicate that
he was armed. Defendant lowered his weapon, momentarily pointing it at the
ground. At that point, someone with Defendant said: “Get at him [the victim].
You need to get at him.” Defendant then started shooting at the victim. After the
first shot, the victim fell down. Defendant continued to fire multiple shots at the
victim and then ran away. Later that evening, Mr. Moore visited the victim’s
mother and told her he was present when the victim was shot. The next day, Mr.
Moore gave a full recorded statement to the police.
The State called Durrell, who emphatically stated he did not want to testify
in this matter. However, Durrell testified that he and the victim were friends and
attended school together. On the day of the shooting, Durrell was with “Tigger”
and “Nice” in the Seventh Ward when the victim told him that he (the victim) was
“mean mugging” (making facial expressions) with somebody at the apartment
6
Williams Cert. Petition Appendix 7a

complex. Durrell returned to the apartment complex pursuant to the victim’s
request. When Durrell arrived at the complex, he saw the victim arguing with
Defendant. Shortly after, Durrell’s mother, Ms. Williams, drove up to the complex
with Mr. Moore and ordered Durrell to get into the car. He refused to comply.
Defendant retrieved a gun from a car and pointed it at the victim. Durrell testified
that Mr. Moore stepped in front of the victim to defuse the situation and Defendant
lowered his gun. The victim said: “He brought that whole gun out here but he’s
not going to use it.” One of Defendant’s friends urged Defendant to “get at the
[victim].” Defendant began shooting the victim and continued to shoot as the
victim fell to the ground. Defendant then ran away. Durrell said that neither he,
the victim nor Mr. Moore were armed at the time of the shooting. A few days after
the shooting, he gave a statement to the police.
Ms. Williams testified that, on the day of the shooting, Durrell and the
victim were together on Allen Street. Ms. Williams received a telephone call from
her friend informing her that Durrell and “others” were arguing at the apartment
complex in the 2100 block of Allen Street. Ms. Williams and Mr. Moore drove to
the complex. Ms. Williams told Durrell and the victim to get into her car; however,
they did not do so. Someone drove up and handed something to the person the
victim had been arguing with. That person walked back to the victim and pointed
a gun at him. At that point, Mr. Moore stood in front of the victim and convinced
the gunman to lower his weapon. As Mr. Moore and Durrell had testified before
her, Ms. Williams stated that someone urged the gunman to shoot, he shot the
victim multiple times, even after the victim fell to the ground, and then the gunman
ran away. Ms. Williams called 911. She testified that the victim, Mr. Moore and
Durrell were unarmed at the time the shooting started. Ms. Williams also testified
7
Williams Cert. Petition Appendix 8a

that the victim did not make any gesture to suggest he had a gun. After witnessing
the shooting, Ms. Williams went to the victim’s mother’s house, told her that the
victim was shot by “Cliff” and gave the victim’s mother an Instagram picture of
“Cliff.” Ms. Williams spoke to the police and identified Defendant as the gunman
from a photo lineup shown to her.
Dr. Michael Defatta, the State's expert in forensic pathology, performed an
autopsy on the victim's body and rendered a report of his findings. Dr. Defatta
noted that the victim suffered four gunshot wounds – one each to his right arm,
head, right chest and left leg. The fatal wounds were to the victim’s head and
chest.
Sgt. Mark Boudreaux, the State’s firearm expert, testified he received a 9millimeter weapon and eight 9-millimeter casings for testing. Boudreaux test fired
the 9-millimeter weapon. He compared the rounds he test-fired to the eight 9millimeter casings obtained from the crime scene and the victim’s autopsy. He
concluded that the all of the 9-millimeter casings he received were fired by the
same gun, and that the gun was the same 9-millimeter weapon confiscated from
Defendant.
The defense recalled Det. Ward, who confirmed that he took a statement
from Durrell on March 29, 2013, during which Durrell said his nickname was
“Ruger.” Det. Ward stated that a “Ruger” was, to his knowledge, a type of
firearm. He also remembered Durrell referring to guns as “burners.”
On cross-examination, Det. Ward clarified that Durrell’s statement indicated three
guns were on the scene of the shooting – the weapon used by Defendant, and the
guns Durrell believed were in the possession of two of Defendant’s associates. Det.

8
Williams Cert. Petition Appendix 9a

Ward reaffirmed that Durrell never stated that he, Mr. Moore, or the victim were
armed at the time of the shooting.
The next defense witness was Lamont Anderson (“Mr. Anderson”), who
admitted to currently being incarcerated. Mr. Anderson recounted the events of
March 23, 2013, stating that when he came home from school that afternoon, he
and someone named “Dominique” got into an argument. Defendant stepped in to
de-escalate the argument. Dominique and Defendant then walked away.
Dominique then called the victim who arrived on the scene and began arguing with
Defendant because he thought Defendant was the person who had argued with
Dominique. The victim threatened Defendant and called him names. The victim
then “went to reach – went to get a gun from Dominique.” The victim clutched the
gun in the waistband of his pants. When the shooting started, Mr. Anderson ran
inside. He admitted he did not witness the actual shooting. Mr. Anderson also
conceded that his sister and Defendant were involved in a dating relationship.
On cross-examination, Mr. Anderson stated that he was currently in jail with
Defendant. Mr. Anderson said he lied when he told the district attorney on multiple
occasions and told the detective right after the shooting that he did not see the
victim at all on the day of the shooting. He also admitted he never told the
detective that he saw the victim clutching a gun. Mr. Anderson stated that he was
inside for some minutes “talking, fussing” with his mother before he heard the
gunshots. He stated that he never saw any firearms on the day of the shooting.
Instead, he said he only saw the victim holding the waistband of his pants.
However, during further questioning, Mr. Anderson once again stated he saw
“Dominique” give the victim a gun. However, Mr. Anderson stated Dominique
gave a gun to the victim a few minutes before the shooting, when he got home
9
Williams Cert. Petition Appendix 10a

“around three o’clock” in the afternoon. The prosecutor established that Mr.
Anderson was wrong about the time frame as the victim was actually shot about
three hours later. The prosecutor also impeached Mr. Anderson with a statement he
made to the jury that he had not spoken to Defendant in a month, yet in a phone
call from jail, Mr. Anderson stated he spoke to Defendant a couple of days before
the trial.
Errors Patent
A review of the record reveals one patent error. Defendant’s motion for new
trial was denied on May 17, 2017, after which the trial judge immediately
sentenced Defendant.
La. C.Cr.P. art. 873 states, in pertinent part, that if a motion for new trial is
filed, sentence shall not be imposed until at least twenty-four hours after the
motion is denied, unless the defendant expressly waives the delay.
“[T]he failure to observe the twenty-four-hour delay mandated by Article 873 is
harmless where the defendant does not complain of his sentence on appeal.” State
v. Duncan, 2011–0563, p. 8 (La. App. 4 Cir. 5/2/12), 91 So. 3d 504, 511.
In the instant case, the record does not indicate that Defendant waived the
twenty-four-hour delay, and, Defendant does raise, in his fourth assignment of
error, the claim that his sentence is unconstitutionally excessive. Nevertheless,
“[a]bsent a showing that prejudice resulted from the failure to afford the statutory
delay, reversal of the prematurely imposed sentence is not required.” State v.
Hutsell, 2017-0112 (La. App. 4 Cir. 4/18/18), 241 So. 3d 542, 551 (citing State v.
Seals, 1995-0305, p. 17 (La. 11/25/96), 684 So. 2d 368, 380). No prejudice can be
found when the sentence imposed was mandatory because “[d]elay or no delay, the

10
Williams Cert. Petition Appendix 11a

sentence the judge was required to impose would have been the same.” Seals,
1995-0305 at p. 17, 684 So. 2d at 380.
In the case sub judice, Defendant was convicted of second degree murder
which mandates a sentence of life imprisonment without benefit of parole,
probation or suspension of sentence. See La. R.S. 14:30.1. Because Defendant
received the mandatory minimum under La. R.S. 14:30.1, the court’s failure to
observe the statutory delay is harmless error. State v. Green, 2010-1355, p. 12 (La.
App. 4 Cir. 6/22/11), 69 So. 3d 695, 703.
Sufficiency of the Evidence
In his first assignment of error, Defendant argues the evidence is insufficient
to support his conviction for second degree murder.
When reviewing the sufficiency of the evidence to support a conviction,
Louisiana appellate courts apply the standard enunciated in Jackson v. Virginia,
443 U.S. 307, 99 S. Ct. 2781, 61 L.Ed.2d 560 (1979). Under this standard, the
appellate court must determine that the evidence, viewed in the light most
favorable to the prosecution, was sufficient to convince a rational trier of fact that
all of the elements of the crime had been proven beyond a reasonable doubt. State
v. Tate, 2001-1658, p. 4 (La. 5/20/03), 851 So. 2d 921, 928.
“The principal criterion of a Jackson v. Virginia review is rationality.” State
v. Mussall, 523 So. 2d 1305, 1310 (La. 1988). “In reviewing the evidence, the
whole record must be considered because a rational trier of fact would consider all
the evidence, and the actual trier of fact is presumed to have acted rationally until
it appears otherwise.” Id. (emphasis in original). “If rational triers of fact could
disagree as to the interpretation of the evidence, the rational trier's view of all the
evidence most favorable to the prosecution must be adopted.” State v. Egana,
11
Williams Cert. Petition Appendix 12a

1997-0318, p. 6 (La. App. 4 Cir. 12/3/97), 703 So. 2d 223, 228; Mussall, supra. It
is not the function of the appellate court to assess the credibility of witnesses or
reweigh the evidence. State v. Scott, 2012-1603, p. 11 (La. App. 4 Cir. 12/23/13),
131 So. 3d 501, 508. Credibility determinations, as well as the weight to be
attributed to the evidence, are soundly within the province of the trier of fact. Id.
“Moreover, conflicting testimony as to factual matters is a question of weight of
the evidence, not sufficiency. Such a determination rests solely with the trier of
fact, who may accept or reject, in whole or in part, the testimony of any witness.”
Id. “Absent internal contradiction or irreconcilable conflict with the physical
evidence, a single witness' testimony, if believed by the fact finder, is sufficient to
support a factual conclusion.” State v. De Gruy, 2016-0891, p. 11 (La. App. 4 Cir.
4/5/17), 215 So. 3d 723, 730, writ denied, 2017-0752 (La. 1/9/18), 231 So. 3d 652.
Second degree murder, as applicable in this case, requires evidentiary proof
beyond a reasonable doubt to establish the killing of a human being “when the
offender has specific intent to kill or to inflict great bodily harm.” La. R.S.
14:30.1A(1). “Specific criminal intent is that state of mind which exists when the
circumstances indicate that the offender actively desired the prescribed criminal
consequences to follow his act or failure to act.” La. R.S. 14:10(1). “Specific intent
may be inferred from the circumstances surrounding the offense and the conduct of
the defendant.” State v. Bishop, 2001-2548, p. 4 (La. 1/14/03), 835 So. 2d 434,
437; State v. Caliste, 2012-0533, p. 9 (La. App. 4 Cir. 9/4/13), 125 So. 3d 8, 14.
In this case, Defendant concedes that he killed the victim. However, he
claims that he was justified in committing the killing as he allegedly shot the
victim in self-defense. La. R.S. 14:20 defines a justifiable homicide, in pertinent
part, as one “committed in self-defense by one who reasonably believes that he is
12
Williams Cert. Petition Appendix 13a

in imminent danger of losing his life or receiving great bodily harm and that the
killing is necessary to save himself from that danger.” In a homicide case, when
the defendant asserts he acted in self-defense, the State bears the burden of
establishing beyond a reasonable doubt that the defendant did not act in selfdefense. State v. Taylor, 2003-1834, p. 7 (La. 5/25/04), 875 So. 2d 58, 63. “The
fact that an offender's conduct is justifiable, although otherwise criminal, shall
constitute a defense to prosecution for any crime based on that conduct.” La. R.S.
14:18. The defense of justification can be claimed “[w]hen the offender's conduct
is in defense of persons or of property under any of the circumstances described in
Articles 19 through 22.” See La. R.S. 14:18(7) (referencing La. R.S. 14:19 -14:22).
La. R.S. 14:20 A(1) specifically applies if a homicide is “committed in self-defense
by one who reasonably believes that he is in imminent danger of losing his life or
receiving great bodily harm and that the killing is necessary to save himself from
that danger.” See State v. Reed, 2014-1980 (La. 9/7/16), 200 So. 3d 291, 309,
reh'g granted in part, 2014-1980, p. 21 (La. 10/19/16), 213 So. 3d 384, and cert.
denied, 137 S. Ct. 787, 197 L. Ed. 2d 258 (2017), reh'g denied, 137 S. Ct. 1615,
197 L. Ed. 2d 738 (2017). Further, “[a] person who is the aggressor or who brings
on a difficulty cannot claim the right of self-defense unless he withdraws from the
conflict in good faith and in such a manner that his adversary knows or should
know that he desires to withdraw and discontinue the conflict.” Id., (citing La.
R.S. 14:21).
Thus, the issue we must address is whether the State presented sufficient
evidence beyond a reasonable doubt that the homicide was not justified.
At trial, the jury was presented with two versions of the circumstances
leading up to the victim’s shooting death. The State presented the testimony of Mr.
13
Williams Cert. Petition Appendix 14a

Moore, Durrell and Ms. Williams, each of whom testified that Defendant was the
aggressor in the altercation. Although both the victim and Defendant were
involved in a verbal confrontation, Ms. Williams testified that it was Defendant
who escalated the conflict by retrieving a firearm from a nearby vehicle and
returning to the scene to continue the argument with the victim. All three of the
State’s witnesses reported that Defendant was armed and the victim was not.
Additionally, these witnesses reported that Defendant pointed the gun at the victim
while the victim was unarmed, that the victim made no threatening gestures or
physical contact toward Defendant, and the victim never physically behaved as if
he was reaching for a weapon. Mr. Moore testified that, although he attempted to
quell the dispute by standing between the victim and Defendant, Defendant raised
his weapon and began shooting after being urged to do so by one of his associates.
Mr. Moore’s testimony was corroborated by both Durrell and Ms. Williams.
The jury also heard testimony from the State’s witnesses to indicate that
Defendant fired multiple shots, including shots fired after the victim had fallen.
Also, instead of reporting that he acted in self-defense at the time of the shooting,
Defendant ran away from the scene of the crime.
Defendant argues, as evidence that he acted in self-defense, that he never
denied shooting the victim but claimed self-defense immediately. Defendant’s
claim is belied by the record, however, as he initially denied being at the scene of
the crime and denied that he even knew the victim. The jury heard and read his
recorded statement and made its own credibility determinations. Defendant was
heard admitting to the shooting of the victim, allegedly in self-defense, only after
he was confronted by law enforcement with the significant evidence against him,
including witnesses who placed him at the scene.
14
Williams Cert. Petition Appendix 15a

The defense’s version of the shooting, on the other hand, centered on the
theory that the victim, Mr. Moore and Durrell were affiliated with a gang named
“Money Over Everything” but no definitive evidence supported this claim and,
specifically, no evidence was offered to show the victim was a gang member.
Although the defense attempts to attack the credibility of Mr. Moore and Durrell
based on the fact they were both serving time for violent crimes, the jury was made
aware of the witnesses’ incarceration and crimes and made its own assessment of
the weight to be given to their testimony. Also, the testimony of Ms. Williams
corroborated Mr. Moore’s and Durrell’s accounts and the defense did not discredit
her testimony.
Furthermore, ‘[t]he determination of credibility is a question of fact within
the sound discretion of the trier of fact and will not be disturbed unless clearly
contrary to the evidence.” State v. Richards, 2011- 0349, p. 9 (La. App. 4 Cir.
12/1/11), 78 So. 3d 864, 869 (citation omitted). Most of the defense argument that
the victim was a threat to Defendant was contingent on the testimony of Mr.
Anderson, who was thoroughly discredited at trial. Mr. Anderson did not see the
shooting itself and could not counter the eyewitness testimony. Mr. Anderson’s
trial testimony contradicted his earlier statements to the district attorney and the
detective that he did not see the victim at all on the day of the shooting. He also
stated at trial that he saw the victim clutching a gun, an account he had not
previously provided to law enforcement. The prosecutor established that Mr.
Anderson was wrong about the time frame of the shooting and then impeached Mr.
Anderson with a false statement he made to the jury that he had not spoken to
Defendant in a month when, in fact, he had spoken with him just days before the
trial. Finally, Mr. Anderson conceded that he was currently jailed with Defendant
15
Williams Cert. Petition Appendix 16a

and that Defendant was involved in a relationship with Mr. Anderson’s sister. The
jury rejected his testimony.
Based upon the evidence the State presented at trial, we find a rational trier
of fact could have found, beyond a reasonable doubt, that the killing carried out by
Defendant was not justified. Moreover, under the standard of Jackson v. Virginia,
supra, the jury rationally concluded that the evidence at trial established Defendant
had the specific intent to kill or to inflict great bodily harm, and thus convicted him
of second degree murder.
Right to Present a Defense
In his second assignment of error, Defendant maintains he was prevented
from presenting a defense because the trial court precluded the introduction of the
following evidence: 1) a photograph that allegedly depicted the victim holding a
gun; 2) evidence that the victim had a previous adjudication for a weapons offense;
3) evidence that the victim made threats on social media against Defendant; and 4)
the testimony of defense witness, Torrey Lewis, purported to support that the
victim had previously threatened Defendant. Defendant asserts that this evidence
would have shown the bad character of the victim and prior threats made by the
victim, and by ruling the evidence inadmissible, the trial court unfairly restricted
his ability to present his self-defense claim.
In State v. Van Winkle, 1994-0947, p. 5 (La. 6/30/95), 658 So. 2d 198, 201202, the Louisiana Supreme Court discussed a defendant’s right to present a
defense:
A criminal defendant has the constitutional right to present a defense.
U.S. Const. amend. 6; La. Const. Art. 1 § 16; Washington v. Texas,
388 U.S. 14, 87 S. Ct. 1920, 18 L.Ed.2d 1019 (1967); State v.
Gremillion, 542 So. 2d 1074 (La. 1989); State v. Vigee, 518 So. 2d
501 (La. 1988). Due process affords the defendant the right of full
16
Williams Cert. Petition Appendix 17a

confrontation and cross examination of the State’s witnesses.
Chambers v. Mississippi, 410 U.S. 284, 93 S.Ct. 1038, 35 L.Ed.2d
297 (1973); State v. Mosby, 595 So. 2d 1135 (La. 1992). It is difficult
to imagine rights more inextricably linked to our concept of a fair
trial.
Evidentiary rules may not supersede the fundamental right to present a
defense. Id. at p. 5, 658 So. 2d at 202. Generally, a trial court's ruling as to the
admissibility of evidence will not be disturbed absent a clear abuse of discretion.
State v. Griffin, 2015-0125, p. 24 (La. App. 4 Cir. 9/16/15), 176 So. 3d 561, 575
(citing State v. Cyrus, 2011-1175, p. 20 (La. App. 4 Cir. 7/5/12), 97 So. 3d 554,
565). Additionally, a trial court’s determination that a defendant has not laid a
sufficient evidentiary foundation upon which to introduce testimony concerning
the victim's dangerous character will not be disturbed on appeal, absent a finding
of clear error. State v. Jackson, 419 So. 2d 425, 427 (La. 1981).
In the instant case, Defendant submits that evidence of the victim's bad
character or his threats supported a plea of self-defense, and that the evidence was
admissible under La. C.E. art. 404. This statutory provision provides, in pertinent
part:
A. Character evidence generally. Evidence of a person's character or
a trait of his character, such as a moral quality, is not admissible
for the purpose of proving that he acted in conformity therewith on
a particular occasion, except:
***

(2) Character of victim.
(a) Except as provided in Article 412,4 evidence of a pertinent trait of
character, such as a moral quality, of the victim of the crime
4

La. C.E. art. 412 applies to sexual assault cases, inapplicable here.
17
Williams Cert. Petition Appendix 18a

offered by an accused, or by the prosecution to rebut the character
evidence; provided that in the absence of evidence of a hostile
demonstration or an overt act on the part of the victim at the
time of the offense charged, evidence of his dangerous
character is not admissible . . .
La. C.E. art. 404 (A)(2)(a) (emphasis added.)
In State v. Williams, 1996-1587, pp. 7-8 (La. App. 4 Cir. 4/16/97), 693 So.
2d 249, 253-54, this court discussed the use of character evidence with respect to
the victim of a crime:
When a defendant pleads self-defense, evidence of the victim's
dangerous character or of threats against the defendant is relevant to
show the victim was the aggressor and that the defendant's fear of
danger was reasonable. State v. Edwards, 420 So. 2d 663, 669
(La.1982); State v. Montz, 92–2073 (La. App. 4th Cir.2/11/94), 632
So. 2d 822, 824–825, writ denied, 94–0605 (La. 6/3/94), 637 So. 2d
499.
For such evidence to be admissible, the defendant must first produce
evidence that at the time of the incident the victim made a hostile
demonstration or committed an overt act against him of
such character that would have created in the mind of a reasonable
person the fear that he was in the immediate danger of losing his life
or suffering great bodily harm. State v. Gantt, 616 So. 2d 1300, 1304
(La. App. 2nd Cir.1993), writ denied, 623 So. 2d 1302 (La.1993). An
overt act is any act which manifests to the mind of a reasonable
person a present intention to kill or inflict great bodily
harm. Edwards, supra at 669.
Once evidence of an overt act is established, evidence of the victim's
threats to the defendant and of the victim's dangerous character are
admissible: (1) to show the defendant's reasonable apprehension of
danger justifying his conduct and (2) to help determine who was the
aggressor. Edwards, supra at 670.
If the purpose is to show the defendant's reasonable apprehension of
danger, it must be shown that the defendant knew of the victim's prior
threats or reputation. Edwards, supra, at 670; State v. Eishtadt, 531
So. 2d 1133, 1135 (La. App. 4th Cir.1988). Once this knowledge is
established, evidence of the victim's character, both general reputation
and specific threats or acts of violence against the defendant are
admissible. Edwards, supra, at 670.

18
Williams Cert. Petition Appendix 19a

If the purpose is to show that the victim was the aggressor, there is no
requirement that the defendant know of the victim's prior acts or
reputation. Eishtadt, supra at 1135.
(Emphasis in original).
Based upon the foregoing, before the trial court could admit character
evidence of the victim, Defendant was required to show an overt act of possible
aggression by the victim. Defendant argues that the defense established an overt
act through the testimony of Mr. Anderson but that the trial court wrongfully
discredited the testimony, thus interfering with the fact-finding function of the jury.
The evidence tending to establish an overt act must be “appreciable.” State
v. Lee, 331 So. 2d 455, 459 (La. 1975), original opinion reinstated on reh'g (La.
1976). When appreciable evidence of the overt act is in the record, the trial court
cannot infringe on the fact-finding function of the jury by disbelieving the defense
testimony and thereby deny the accused a defense permitted him by law.
Id. A trial court should not make a “credibility evaluation” of the overt act
evidence being offered in determining its admissibility. Edwards, 420 So. 2d at
669.
In this case, the testimony of eyewitnesses presented by the State proved
the victim was unarmed and did not make a hostile demonstration or commit an
overt act against Defendant of such character that would have created in the mind
of a reasonable person the fear that he was in the immediate danger of losing his
life or suffering great bodily harm. The defense presented the testimony of Mr.
Anderson, who reported for the first time at trial, having given contradictory
statements to law enforcement and the district attorney on several occasions prior
to trial, that the victim threatened to kill Defendant and that he witnessed the
victim clutching a weapon during the verbal dispute between Defendant and the
19
Williams Cert. Petition Appendix 20a

victim. However, Mr. Anderson’s trial testimony was not given until after the
defense had moved to admit and been precluded from admitting character
evidence of the victim. The defense did not re-urge its argument that the evidence
should be admitted after Mr. Anderson had testified. Thus, at the time the trial
court’s ruling was made, the only evidence before the court was the eyewitness
testimony establishing that the victim was both unarmed and did not behave in a
threatening manner toward Defendant and no overt act showing aggression on the
part of the victim was presented. Based on the record before this Court, the trial
court did not err by excluding character evidence of the victim at trial as there
was no appreciable evidence of an overt act by the victim. This assignment of
error has no merit.
Incomplete Record on Appeal
In his third assignment of error, Defendant claims his rights under the Fifth
and Fourteenth Amendments to the United States Constitution were abridged by
an incomplete record on appeal. Specifically, he complains the record does not
contain a transcription of the bench conferences which occurred during trial,5 thus
precluding a determination of whether significant errors occurred off the record.
Louisiana Constitution Article I § 19 guarantees a defendant a right of
appeal “based upon a complete record of all evidence upon which the judgment is
based.” Additionally, La. C.Cr.P. art. 843 provides in pertinent part:
In felony cases, ... the clerk or court stenographer shall record all of
the proceedings, including the examination of prospective jurors, the
5

On September 18, 2018, this Court ordered the court reporter in this case to prepare and file the
transcripts of the in-chambers arguments heard on the State’s motion in limine conducted on
January 23, 2017, and all bench conferences held during this trial, or certificates of unavailability
within thirty days of the order. On October 24, 2018, the court reporter filed a transcript of the
motion in limine at which the court excluded the juvenile victim’s arrest record. The court
reporter also included a certificate of unavailability concerning the bench conferences.

20
Williams Cert. Petition Appendix 21a

testimony of witnesses, statements, rulings, orders, and charges by the
court, and objections, questions, statements, and arguments of
counsel.
“The trial judge is duty-bound to see that the court reporter makes a true,
complete, and accurate record of the trial.” State v. Higginbotham, 2011-0564, p. 6
(La. 5/6/11), 60 So. 3d 621, 624 (citing State v. Landry, 1997-0499 (La. 6/29/99),
751 So. 2d 214, 216). “[W]here a defendant's attorney is unable, through no fault
of his own, to review a substantial portion of the trial record for errors so that he
may properly perform his duty as appellate counsel, the interests of justice require
that a defendant be afforded a new, fully recorded trial.” Id. (citations omitted).
In State v. Landry, the Louisiana Supreme Court explained a defendant has a right
to a complete transcript of the trial proceedings, “particularly where counsel on
appeal was not counsel at trial.” Landry, 1997-0499, p. 3, 751 So. 2d at 215
(citations omitted).
An incomplete record, however, is not in and of itself a reason for reversal,
and an incomplete record may be adequate for full appellate review. State v. Bright,
2000-1255, p. 7 (La. App. 4 Cir. 2/6/02), 809 So. 2d 1112, 1117. Appellate review
in Louisiana is restricted to questions of law based on defense objections and
assignments of error. State v. Francis, 345 So. 2d 1120, 1125 (La. 1977) (citing La.
Const. art. 5, § 5(C) (1974) and La. C.Cr.P. art. 841), cert. denied, 434 U .S. 891, 98
S.Ct. 267, 54 L.Ed.2d 177 (1977). Consequently, when the transcript and record
contain the portions necessary to address the issues actually raised on appeal,
including those portions where objections were made by counsel, the record is
constitutionally sufficient for a meaningful appeal. Schwander v. Blackburn, 750
F.2d 494 (5th Cir.1985).

21
Williams Cert. Petition Appendix 22a

The Louisiana Supreme Court has enunciated a three-part standard for
reviewing incomplete record claims. State v. Frank, 99-0553, pp. 20-21 (La.
1/17/01), 803 So. 2d 1, 19-20. First, “[m]aterial omissions from the transcript of
the proceedings at trial bearing on the merits of an appeal will require reversal.” Id.
at pp. 20-21, 803 So. 2d at 20. Second, “inconsequential omissions or slight
inaccuracies do not require reversal.” Id. at p. 21, 803 So. 2d at 20. Third, “a
defendant is not entitled to relief because of an incomplete record absent a showing
of prejudice based on the missing portions of the transcripts. Id. (citations omitted).
Defendant complains that the record lacks transcriptions of the bench
conferences which occurred during trial. Specifically, Defendant lists the following
instances where bench conferences were not transcribed: 1) a motion in limine
handled on January 23, 2017, concerning evidence that the victim had a prior
weapons conviction;6 2) the State’s “objectionable comments” during voir dire; 3)
the State’s introduction of an Instagram photo via the victim’s mother; 4) hearsay
testimony of Det. Ward; 5) defense counsel’s questioning of Det. Ward relative to
the statements of a witness named “Miss Anderson;” 6) the State’s re-direct
examination of Det. Ward about six individuals called to the crime scene by the
victim’s friend; 7) the State’s re-direct examination of Det. Ward regarding a prior
motion hearing; 8) the trial court’s granting of the State’s request to re-cross
Lamont Anderson at the end of the defense redirect examination; and 9) the State’s
objection to defense counsel’s questioning of defense witness Torrey Lewis
regarding an incident involving the victim at a grocery store.

6

As previously stated, a transcription of the January 23, 2017 motion hearing was subsequently
provided by the court reporter.
22
Williams Cert. Petition Appendix 23a

The Louisiana Supreme Court noted in State v. Deruise, 1998-0541, p. 14-15
(La. 4/3/01), 802 So. 2d 1224, 1236, as follows:
This court has never articulated a per se rule either requiring the
recording of bench conferences or exempting them from the scope of
La.C.Cr. P. art. 843; State v. Hoffman, 98-3118, p. (La. 4/11/00), 768
So. 2d 542. 586. However, in Hoffman, we interpreted Article 843's
requirement that “objections” and “arguments” be recorded as
normally applying only to objections made in open court and the
arguments of counsel in closing, because only these objections and
arguments rise to a level of materiality sufficient to invoke Article
843. Id. We further determined in that case that, similarly, Art. I., §
19's mandate that “evidence” be recorded does not encompass bench
conferences; at least, not ones that do not satisfy the materiality
requirements of La. Code Crim. Proc. art. 843. Id. at 587.
In the case sub judice, Defendant does not establish that the lack of
transcriptions of the bench conferences held by the trial court constitute material
omissions nor does he show how the alleged omissions from the record have
affected his substantive rights. The record evidence does not indicate that
Defendant was prevented from presenting any relevant evidence or that the failure
to record bench conferences had a discernible impact on the proceedings. Further,
Defendant fails to allege or prove any specific prejudice suffered by him as a result
of not having the bench conferences transcribed. The trial proceedings which led to
the un-transcribed bench conferences were transcribed in their entirety, and the
rulings on those objections are evident from the record. Inasmuch as Defendant
has failed to articulate any prejudice, the failure to transcribe the bench
conferences is, at most, harmless error. This claim lacks merit.
Unconstitutionally Excessive Sentence
Defendant’s fourth assignment of error challenges the excessiveness of
Defendant’s sentence to life imprisonment without benefit of parole, probation or
suspension of sentence under both the U.S. Constitution as well as the Louisiana

23
Williams Cert. Petition Appendix 24a

Constitution. Defendant was found guilty of second degree murder and received
the statutory mandatory minimum sentence for his crime.
The Eighth Amendment to the United States Constitution prohibits cruel and
unusual punishment, while Article I, § 20 of the Louisiana Constitution of 1974
also prohibits the imposition of excessive punishment. State v. Wilson, 2014-1267,
p. 24 (La. App. 4 Cir. 4/29/15), 165 So. 3d 1150, 1165. “The scope and authority
of an appellate court's power to upset a district court's sentence is set forth in La.
C.Cr.P. art. 881.4.” Id. “The trial judge is afforded wide discretion in determining
sentences, and the court of appeal will not set aside a sentence for excessiveness if
the record supports the sentence imposed.” State v. Williams, 2015-0866, pp. 12-13
(La. App. 4 Cir. 1/20/16), 186 So. 3d 242, 250. “[A] sentence is excessive and
unconstitutional if it is grossly out of proportion to the severity of the crime or if it
is nothing more than the purposeless and needless imposition of pain and
suffering.” State v. Bonanno, 384 So. 2d 355, 357 (La.1980); State v. Stevenson,
1999-2824, p. 3 (La. App. 4 Cir. 3/15/2000), 757 So. 2d 872, 874.
The excessiveness of a sentence is a question of law, and a reviewing court
will not set aside a sentence absent a manifest abuse of discretion by the trial
court. Wilson, 2014-1267, p. 24, 165 So. 3d at 1165.
Defendant was eighteen years old at the time he committed the offense of
second degree murder. He asserts, without legal support, that since he had only
recently turned eighteen years of age, he is entitled to have his sentence imposed in
consideration of Miller v. Alabama, 567 U.S. 460, 465, 132 S. Ct. 2455, 2460, 183
L.Ed.2d 407 (2012).
In Miller, supra, the United States Supreme Court held that a state’s
statutory sentencing scheme that mandates life imprisonment without parole, for
24
Williams Cert. Petition Appendix 25a

those offenders under the age of eighteen years at the time they committed a
homicide offense, violates the Eighth Amendment prohibition of “cruel and
unusual punishments.” The Miller Court did not prohibit life imprisonment without
parole for juveniles, but rather required that the statutory sentencing scheme
“authorize a sentencing court to consider an offender’s youth and attendant
characteristics as mitigating circumstances before deciding whether to impose the
harshest penalty for juveniles who have committed a homicide offense.” Williams,
2015-0866, p.13, 186 So. 3d at 250 (citation omitted). In response to the Miller
decision, the Louisiana Legislature enacted La. C.Cr. P. art. 878.1 and La. R.S.
15:574.4, providing procedures for determining parole eligibility for juvenile
offenders.
First, neither Miller nor the statutes enacted in light of Miller by the
Louisiana Legislature authorize this Court to apply the leniency granted to
juveniles to Defendant, who was an adult at the time of his offense. Additionally,
review of Defendant’s sentencing held on May 17, 2017 shows that the trial court
did not enumerate reasons for the sentence imposed; however, the failure of the
trial court to enumerate specifically for the record the factors considered and the
basis for the sentence as required by Article 894.1 does not render the sentence
invalid. Wilson, 2014-1267, p. 24, 165 So. 3d at 1165. An appellate court may
uphold a sentence if the record clearly illuminates the sentencing choice and
reflects that the sentence is not excessive. State v. Major, 1996-1214, p. 10 (La.
App. 4 Cir. 3/4/98), 708 So. 2d 813, 819 (articulation of the factual basis for a
sentence is the goal of Art. 894.1, not rigid or mechanical compliance with its
provisions. Where the record clearly shows an adequate factual basis for the

25
Williams Cert. Petition Appendix 26a

sentence imposed, resentencing is unnecessary even when there has not been full
compliance with Art. 894.1).
The evidence in this case supports the sentence of life imprisonment. The
testimony of the State’s eyewitnesses established that the victim was unarmed at
the time of the shooting, and further, that the victim made no threatening gesture to
suggest he had a gun in his waistband. This testimony was unrefuted by any
credible evidence.
Further, Defendant’s action just prior to the shooting belies his argument
that he was in fear for his life at the time he encountered the victim. The testimony
offered at trial shows Defendant walked away from the argument with the victim
and retrieved the weapon that he used to kill the victim. Although a third party
tried to diffuse the conflict and was able to get Defendant to lower his weapon,
Defendant began shooting the victim after he was encouraged to do so by one of
his associates. Defendant then stood over the victim and continued to fire the
weapon even after the fifteen-year old victim fell to the ground. The evidence
supports the jury’s conclusion that Defendant was the aggressor and unjustifiably
shot the victim. Based upon the facts adduced at trial, Defendant’s life sentence is
not constitutionally excessive.
For all of the foregoing reasons, we affirm Defendant’s conviction and
sentence.

CONVICTION AND SENTENCE AFFIRMED

26
Williams Cert. Petition Appendix 27a

FOR IMMEDIATE NEWS RELEASE

NEWS RELEASE #011

FROM: CLERK OF SUPREME COURT OF LOUISIANA

The Opinions handed down on the 3rd day of April, 2020are as follows:
PER CURIAM:
2019­K­00490

STATE OF LOUISIANA VS. CLIFFORD WILLIAMS (Parish of Orleans
Criminal)
Before trial, the defense was prohibited from introducing evidence of the
victim’s juvenile arrest for illegal carrying of a weapon. At trial, the defense
unsuccessfully attempted to introduce other evidence of the victim’s
character. Specifically, the defense sought to introduce a photograph that
depicted the victim holding a gun, evidence that the victim had threatened
defendant on social media, and testimony of a witness that the victim had
previously threatened defendant. In rejecting defendant’s claim on appeal
that the district court erred in excluding this evidence, the court of appeal
found that defendant failed to introduce appreciable evidence of a hostile
demonstration or overt act on the part of the victim at the time of the offense
charged, as required by La.C.E. art. 404(A)(2)(a). See State v. Williams, 18­
0445, pp. 19­20 (La. App. 4 Cir. 2/27/19), 265 So.3d 902, 917. Defendant
contends that the court of appeal erred because testimony of an eyewitness
(which is summarized below) constituted appreciable evidence of an overt
act by the victim, and the district court overstepped its bounds in evaluating
the credibility of this witness to find the evidence was not appreciable
because the witness was not credible. We agree. However, for the reasons
below, we find the evidence was otherwise inadmissible, and therefore we
affirm the conviction and sentence.
AFFIRMED.
Retired Judge James H. Boddie, Jr., appointed Justice ad hoc, sitting for
Justice Marcus R. Clark.

Williams Cert. Petition Appendix 28a

04/03/20
SUPREME COURT OF LOUISIANA

No. 2019­K­00490
STATE OF LOUISIANA
versus
CLIFFORD WILLIAMS
ON WRIT OF CERTIORARI TO THE FOURTH CIRCUIT
COURT OF APPEAL, PARISH OF ORLEANS
PER CURIAM: *
On March 25, 2013, the 18­year­old defendant shot and killed 15­year­old
Ralphmon Green in the 2100 block of Allen Street in New Orleans. The victim was
struck by bullets four times and defendant continued to fire at him after he fell to
the ground. Eight shell casings found at the crime scene matched a semiautomatic
handgun that was later found at defendant’s residence. Several eyewitnesses to the
shooting testified that the victim was unarmed.
Defendant, who did not testify at trial, initially denied any involvement in
the shooting when questioned by police. He eventually claimed that he shot the
victim after they argued because the victim was about to pull a handgun from his
waistband beneath his shirt. Defendant denied that he knew the victim or had ever
seen him before the shooting.
Before trial, the defense was prohibited from introducing evidence of the
victim’s juvenile arrest for illegal carrying of a weapon. At trial, the defense
unsuccessfully attempted to introduce other evidence of the victim’s character.
Specifically, the defense sought to introduce a photograph that depicted the victim
holding a gun, evidence that the victim had threatened defendant on social media,
* Retired Judge James Boddie Jr., appointed Justice ad hoc, sitting for Justice Marcus R. Clark.

Williams Cert. Petition Appendix 29a

and testimony of a witness that the victim had previously threatened defendant. In
rejecting defendant’s claim on appeal that the district court erred in excluding this
evidence, the court of appeal found that defendant failed to introduce appreciable
evidence of a hostile demonstration or overt act on the part of the victim at the time
of the offense charged, as required by La.C.E. art. 404(A)(2)(a). See State v.
Williams, 18­0445, pp. 19–20 (La. App. 4 Cir. 2/27/19), 265 So.3d 902, 917.
Defendant contends that the court of appeal erred because testimony of an
eyewitness (which is summarized below) constituted appreciable evidence of an
overt act by the victim, and the district court overstepped its bounds in evaluating
the credibility of this witness to find the evidence was not appreciable because the
witness was not credible. We agree. However, for the reasons below, we find the
evidence was otherwise inadmissible, and therefore we affirm the conviction and
sentence.
In pertinent part, La.C.E. art. 404 provides:
A. Character evidencegenerally.Evidence of a person’s character
or a trait of his character, such as a moral quality, is not admissible in
a civil or criminal proceeding for the purpose of proving he acted in
conformity therewith on a particular occasion, except:
...
(2) Character of victim. (a) Except as provided in Article 412,
evidence of a pertinent trait of character, such as a moral quality, of
the victim of the crime offered by an accused, or by the prosecution to
rebut the character evidence; provide that in the absence of a hostile
demonstration or an overt act on the part of the victim at the time of
the offense charged, evidence of his dangerous character is not
admissible . . . .
B. Other crimes,wrongs,or acts.(1) Except as provided in Article
412, evidence of other crimes, wrongs, or acts is not admissible to
prove the character of a person in order to show that he acted in
conformity therewith. . . .
(2) In the absence of a hostile demonstration or overt act on the part of
2

Williams Cert. Petition Appendix 30a

the victim at the time of the offense charged, evidence of the victim’s
prior threats against the accused or the accused’s state of mind as to
the victim’s dangerous character is not admissible . . . .
Prior to 1952, La.R.S. 15:482 (a precursor to La.C.E. art. 404) provided (emphasis
added): “In the absence of proof of hostile demonstration or of overt act on the part
of the person slain or injured, evidence of his dangerous character or of his threats
against accused is not admissible.” In 1952, the legislature amended that provision
to substitute the word “evidence” for “proof.” See1952 La. Acts 239, § 1. This
court later explained the effect of this amendment:
The legislative intent reflected by the 1952 amendment was to
overrule legislatively our decisions that permitted the trial judge’s
discretion to determine incredible the defendant’s evidence of an overt
act and thus, without jury evaluation of it to withhold from the jury
evidence tendered by the defendant in support of his position that he
was acting reasonably in self­defense. This is the explicit purport of
the amendment, and the prior academic and judicial criticism of the
former interpretation (unique to Louisiana) re­enforces our view that
such was the legislative intent.
...
The trial court thus committed error in its ruling, for it ignored the
effect of the 1952 amendment. By it, when appreciable evidence is in
the record relevantly tending to establish the overt act, the trial court
cannot exercise its discretion to infringe on the fact­determination
function of the jury by disbelieving this defense testimony and thus,
deny the accused a defense permitted him by law.
Statev. Lee, 331 So.2d 455, 459 (La. 1975) (citations omitted). A trial court is not
entitled to “exercise[] a ‘credibility determination’ to refuse the defendant the right
to have the jury determine the merits of [his] plea of self­defense.” State v.
Edwards, 420 So.2d 663, 669 (La. 1982). The most notable limit that this court has
placed on the “appreciable evidence” standard is that “[t]]he self­serving,
contradicted testimony of a the defendant that [the victim] leaned toward a place
the defendant believed he kept a gun is not appreciable evidence tending to
3

Williams Cert. Petition Appendix 31a

establish an overt act.” Statev. James, 339 So.2d 741, 746 (La. 1976).
Here, the evidence of an overt act is almost certainly worthy of disbelief by a
jury, but it still qualifies as appreciable within the meaning of the article as
interpreted by the jurisprudence. The court of appeal described the witness’s
testimony, which formed the sole basis at trial for finding that the victim
committed an overt act:
The next defense witness was Lamont Anderson (“Mr. Anderson”),
who admitted to currently being incarcerated. Mr. Anderson recounted
the events of March 23, 2013, stating that when he came home from
school that afternoon, he and someone named “Dominique” got into
an argument. Defendant stepped in to de­escalate the argument.
Dominique and Defendant then walked away. Dominique then called
the victim who arrived on the scene and began arguing with
Defendant because he thought Defendant was the person who had
argued with Dominique. The victim threatened Defendant and called
him names. The victim then “went to reach—went to get a gun from
Dominique.” The victim clutched the gun in the waistband of his
pants. When the shooting started, Mr. Anderson ran inside. He
admitted he did not witness the actual shooting. Mr. Anderson also
conceded that his sister and Defendant were involved in a dating
relationship.
On cross­examination, Mr. Anderson stated that he was currently in
jail with Defendant. Mr. Anderson said he lied when he told the
district attorney on multiple occasions and told the detective right
after the shooting that he did not see the victim at all on the day of the
shooting. He also admitted he never told the detective that he saw the
victim clutching a gun. Mr. Anderson stated that he was inside for
some minutes “talking, fussing” with his mother before he heard the
gunshots. He stated that he never saw any firearms on the day of the
shooting. Instead, he said he only saw the victim holding the
waistband of his pants. However, during further questioning, Mr.
Anderson once again stated he saw “Dominique” give the victim a
gun. However, Mr. Anderson stated Dominique gave a gun to the
victim a few minutes before the shooting, when he got home “around
three o’clock” in the afternoon. The prosecutor established that Mr.
Anderson was wrong about the time frame as the victim was actually
shot about three hours later. The prosecutor also impeached Mr.
Anderson with a statement he made to the jury that he had not spoken
to Defendant in a month, yet in a phone call from jail, Mr. Anderson
stated he spoke to Defendant a couple of days before the trial.

4

Williams Cert. Petition Appendix 32a

Williams, 18­0445, pp. 9–10, 265 So.3d at 911–12. Viewing this testimony without
evaluating the witness’s credibility, it describes potentially four overt acts or
hostile demonstrations: 1) arguing with defendant; 2) threatening defendant; 3)
retrieving a gun from a third party; and 4) clutching a gun in the waistband of his
pants.
However, the inquiry does not end there. Once evidence of an overt act is
established on the part of the victim, evidence of threats and of the victim’s
dangerous character is admissible for two distinct purposes: 1) to show a
defendant’s reasonable apprehension of danger to justify his conduct, and 2) to
help determine who was the aggressor in the conflict. SeeEdwards, 420 So.2d at
670. The Edwardscourt further explained:
As pointed out in Lee, when the evidence is sought to be introduced to
show the accused’s state of mind, it must be shown that the defendant
knew of the victim’s prior threats or reputation. Once it is shown that
the defendant had such knowledge, the scope of evidence allowed to
indicate the victim’s character is not limited to evidence of general
reputation, but includes evidence of specific threats or acts of violence
by the victim against the accused. Statev. Boss, 353 So.2d 241 (La.
1977). Conversely, when evidence of the victim’s dangerous character
[character evidence] is sought to be introduced by a defendant for the
second purpose [to prove that the victim was the aggressor], there is
no requirement that the defendant have knowledge of the victim’s
prior acts or reputation. However, consistent with the evidentiary rule,
which is not premised on defendant’s knowledge of the victim’s
character, there still remains the general rule that character, whether
good or bad, “depends upon the general reputation that a man has
among his neighbors.” La.R.S. 15:479. Under this rule, proof of a
victim’s character tending to prove who is the aggressor in a conflict
must be established by the general reputation of the victim, not by
specific acts. Only evidence of general reputation, not evidence of
specific acts or personal opinion, is admissible to establish who was
the aggressor in the conflict. Statev. Boss,supra.
Edwards, 420 So.2d at 670–71 (brackets in original).
Pretrial, defendant contended he wished to introduce the victim’s juvenile

5

Williams Cert. Petition Appendix 33a

arrest record “to show that Ralphmon Green acted in conformity therewith and that
he possessed a firearm illegally.” However, under La.C.E. art. 404(B)(1), evidence
of this prior bad act “is not admissible to prove the character of a person in order to
show that he acted in conformity therewith.” Furthermore, there is no indication
that defendant had any knowledge of the victim’s prior arrest for illegal carrying of
a weapon, as might bear upon his state of mind as to the victim’s dangerous
character. SeeLa.C.E. art. 404(B)(2); seealso Edwards, 420 So.2d at 670.
The other three types of evidence the defense sought to admit at trial—the
photograph showing the victim holding a gun, threats against defendant on social
media, and testimony about a prior threat—could constitute prior threats or specific
acts that affected defendant’s state of mind as to the victim’s dangerous character if
defendant had been aware of them. However, defendant denied any knowledge of
or familiarity with the victim before the day of the incident. Defendant’s denial of
any knowledge of the victim at all stands as a formidable obstacle to his attempt to
introduce this evidence to establish his apprehensive state of mind.
Nonetheless, evidentiary rules must yield to the constitutional right to
present a complete defense in some instances. Fundamental to due process of law
is the right to present a defense, Chambersv. Mississippi, 410 U.S. 284, 93 S.Ct.
1038, 35 L.Ed.2d 297 (1973), and to have it fairly considered by the jury,
Washingtonv. Texas, 388 U.S. 14, 87 S.Ct. 1920, 18 L.Ed.2d 1019 (1967). “[T]he
Constitution guarantees criminal defendants ‘a meaningful opportunity to present a
complete defense.’” Crane v. Kentucky, 476 U.S. 683, 690, 106 S.Ct. 2142, 2146,
90 L.Ed.2d 636 (1986), citing California v. Trombetta, 467 U.S. 479, 485, 104
S.Ct. 2528, 2532, 81 L.Ed.2d 413 (1984). This right is abridged by evidence rules
that infringe upon a weighty interest of the accused and are arbitrary or
6

Williams Cert. Petition Appendix 34a

disproportionate to the purposes they are designed to serve. Holmes v. South
Carolina, 547 U.S. 319, 324, 126 S.Ct. 1727, 1731, 164 L.Ed.2d 503 (2006)
(quotation marks and citations omitted).
While the requirement of showing an overt act might be viewed as a high
hurdle where a victim has previously made threats toward a defendant, this court
previously explained the reason for that threshold showing:
The reason for the overt­act foundation required to let in such
evidence to prove aggression is explained by Wigmore, Section 63 at
pp. 489–490: ‘There ought, of course, to be some other appreciable
evidence of the deceased’s aggression, for the character­evidence can
hardly be of value unless there is otherwise a fair possibility of doubt
on the point; moreover, otherwise the deceased’s bad character is
likely to be put forward to serve improperly as a mere excuse for the
killing * * *. Seealso McCormick on Evidence, Sections 193, 295 (2d
ed., 1972).
Lee, 331 So.2d at 460. Thus, the applicable rule already has a built­in balancing
test concerning the right to present a defense: a defendant has a right to present
evidence of the victim’s prior threats, but not at the expense of placing the victim
on trial for those threats alone.
Additionally, cases in which evidentiary rules have been found to impinge
upon the constitutional right to present a defense usually turn on two key
considerations: 1) an arbitrary rule, and 2) otherwise reliable or relevant evidence.
In Chambers
, 410 U.S. 295–96, 93 S.Ct. at 1046, the excluded evidence was a
statement against a witness’s interest that Mississippi’s “voucher” rule rendered
inadmissible when the defendant attempted to impeach his own witness. In
, 388 U.S. at 16, 87 S.Ct. at 1921–22, the excluded evidence was
Washington
another statement against interest by one codefendant who would have testified
favorably on behalf of another codefendant, but was prevented from doing so by a

7

Williams Cert. Petition Appendix 35a

Texas statute prohibiting co­participants in a crime from testifying for one another.
In Crane, 476 U.S. at 685–86, 106 S.Ct. at 2144, the trial court precluded the
defendant from presenting evidence at trial concerning the circumstances under
which the police obtained his confession, which the state conceded was the
linchpin of its case. Finally, in Holmes, 547 U.S. at 323, 126 S.Ct. at 1730–31, the
trial court had excluded evidence concerning third­party guilt—including multiple
statements against interest—for the sole reason that it that conflicted with
purportedly “strong evidence” of the defendant’s guilt, including forensic
evidence.
Here, the rule is not arbitrary. Even if requiring a defendant to show
appreciable evidence of an overt act or a hostile demonstration is burdensome, this
rule: 1) has a clear purpose, and 2) is not the reason why this evidence should have
been excluded in this trial (despite the court of appeal’s conclusion to the
contrary). Rather, this evidence should have been excluded because of defendant’s
failure to show personal knowledge of the victim’s alleged threatening behavior
(because he disclaimed ever knowing the victim). That rule presents no
arbitrariness and is grounded in the simple fact that a person cannot fear an event
he does not know occurred.
Accordingly, for the reasons above, we affirm defendant’s conviction and
sentence.
AFFIRMED

8

Williams Cert. Petition Appendix 36a

07/09/2020 "See News Release 025 for any Concurrences and/or Dissents."

7KH6XSUHPH&RXUWRIWKH6WDWHRI/RXLVLDQD
STATE OF LOUISIANA
No.2019-K-00490
VS.
CLIFFORD WILLIAMS
______
IN RE: Clifford Williams - Applicant Defendant; Applying for Rehearing, Parish of
Orleans Criminal, Criminal District Court Number(s) 516-674, Court of Appeal,
Fourth Circuit, Number(s) 2018-KA-0445;
______
July 09, 2020
Application for rehearing granted in part. See per curiam.
WJC
BJJ
JLW
JDH
SJC
JTG
JHB

Supreme Court of Louisiana
July 09, 2020
Cl
C
ler
e k of C
ourt
Clerk
Court
Fo
F
or the
t e Court
th
C ur
Co
urtt
For
Williams Cert. Petition Appendix 37a

07/09/20

SUPREME COURT OF LOUISIANA

No. 2019-K-00490
STATE OF LOUISIANA
versus
CLIFFORD WILLIAMS
ON WRIT OF CERTIORARI TO THE FOURTH CIRCUIT
COURT OF APPEAL, PARISH OF ORLEANS
PER CURIAM*
Rehearing granted, in part, in response to defendant’s newly raised assertion
the jury’s verdict was not unanimous. The matter is remanded to the court of
appeal for further proceedings and to conduct a new error patent review in light of
Ramos v. Louisiana, 590 U.S. ____, 140 S.Ct. 1390, ____ L.Ed.2d ____ (2020). If
the non-unanimous jury claim was not preserved for review in the trial court or
was abandoned during any stage of the proceedings, the court of appeal should
nonetheless consider the issue as part of its error patent review. See La.C.Cr.P. art.
920(2).
The present matter was pending on direct review when Ramos v. Louisiana
was decided, and therefore the holding of Ramos applies. See Griffith v. Kentucky,
479 U.S. 314, 328, 107 S.Ct. 708, 716, 93 L.Ed.2d 649 (1987). Nothing herein
should be construed as a determination as to whether that ruling will apply
retroactively on state collateral review to those convictions and sentences that were
final when Ramos was decided. Subject to the foregoing, the application for
rehearing is otherwise denied.

* Retired Judge James Boddie Jr., appointed Justice ad hoc, sitting for Justice Marcus R. Clark.

Williams Cert. Petition Appendix 38a

